No. 20-5074
IN THE

Supreme Court of the United States
ROBERT BANKS III,

Petitioner,

v.
UNITED STATES,
Respondent.
On Writ of Certiorari to the
United States Court of Appeals
For the Ninth Circuit
CERTIFICATE OF SERVICE
I am a member of the Bar of this Court, and I hereby certify that
I have, this 14th day of August, 2020, served the Brief of the Center on Race,
Inequality, and the Law at New York University School of Law, as Amicus
Curiae Supporting Petitioner upon each party represented in this proceeding.
I have caused to be served three (3) copies of the Brief upon
Counsel of Record for Respondent, securely enclosed in a prepaid and
properly addressed wrapper, to an agent of FedEx, a commercial courier, for
next business day delivery; to wit: Saturday, August 15, 2020:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2000
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent United States

In addition, pursuant to the Supreme Court’s April 15, 2020
order and having obtained the consent of Counsel of Record for Petitioner, I
served the Brief upon Counsel for Petitioner by electronically transmitting it
to Counsel of Record at the following email address:
Martha M. Hall
Attorney at Law
964 Fifth Avenue, Suite 526
San Diego, California 92101
(619) 544-1451
Martha_DiIorioHall@yahoo.com
Counsel for Petitioner Robert Banks III
Further, pursuant to Supreme Court Rule 29.3, I have caused
electronic copies of the briefs to be served on the parties at the email
addresses listed above.
I further certify that all persons required to be served have been
served.
Dated: August 14, 2020.

/s Antony L. Ryan
Antony L. Ryan
CRAVATH, SWAINE & MOORE LLP
825 Eighth Avenue
New York, NY 10019
(212) 474-1000
Center on Race, Inequality, and the
Law at New York University School of
Law

